6,\ STATE OF IlltKOlS >
■^S. AV3.26.JSI8

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Ganaa Otgoo
Reg. No. 097-374-540
McHenry County Jail
2200 N. Seminary Ave.
Woodstock IL 60098

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 27, 2020
In re:

People State of Illinois, respondent, v. Ganaa Otgoo, petitioner.
Leave to appeal, Appellate Court, First District.

125828
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 07/01/2020.

Very truly yours,

Clerk of the Supreme Court

Ti'is text of this order msvJ
be changed or correcleci
"Kio!' to the time for filing oi
$ Petition for Rehearing gf

2019 IL App (1st) 153346
No. 1-15-3346
Order filed December 23, 2019

: '^indisposition of tii© §ifn§:

First Division
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

)

THE PEOPLE OF THE STATE OF ILLINOIS, ■ )
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
GANAA OTGOO
Defendant-Appellant.

Appeal from the Circuit Court
of Cook County.
i

No. 14 CR 08221

The Honorable
Lauren Gottainer Edidin,
Judge, presiding.

JUSTICE HYMAN delivered the judgment of the court.
Presiding Justice Griffin and Justice Walker concurred in the judgment.
ORDER

HI

Held: The trial court properly admitted testimony regarding defendant’s arrest, five hours
after the assault, for fighting at a different location; the trial court did not abuse its
discretion in admitting defendant's aggravated battery conviction for impeachment
because its probative value was not substantially outweighed by any undue
prejudice; and the alleged prosecutorial misconduct did not prejudice the defendant
and there was no cumulative effect of any alleged error on the guilty verdict.

H2

After a jury trial, defendant Ganaa Otgoo was convicted of aggravated battery of Armando
Velez on a CTA train as it traveled through Skokie, Illinois. Velez reported the attack to the Skokie

1-15-3346

_

police. Five hours later, Chicago police arrested Otgoo for fighting on a street corner and was
released on a recognizance “I-bond.”

13

About two weeks later, in the course of investigating the CTA battery, Skokie police
contacted the arresting officer from the Chicago case asking for assistance. The officer identified
Otgoo from still photographs taken from the CTA security tapes that recorded the incident.
Because Otgoo was due in court for the Chicago battery charge on April 17, the two olhceis agieed
that someone from the Skokie police department would meet Otgoo at the couitioom when he
made his appearance. On April 17, Skokie police detectives arrested Otgoo on his way out ol the
courthouse. The same day, Velez identified Otgoo in a five-person lineup.

14

The State charged Otgoo with two counts ot aggravated battery; one count based on public
property and the other based on the victim being 60 years or older. 720 ILCS 5/12-o.05 (c) (West
2014); 720 ILCS 5/12-3.05 (d)(1) (West 2014). The jury convicted Otgoo of the count of
aggravated battery on public property and acquitted on the second count. Otgoo was sentenced to
five years’ imprisonment.

15

Before Otgoo’s trial, the State sought to admit evidence of other crimes, including 1j
previous arrests as well as the Chicago arrest five hours after the Skokie incident. The tiial couit
allowed only the Chicago arrest to be introduced through live testimony because it lelated to the
investigation of the Skokie crime and led to Otgoo’s arrest.

16

We affirm. Testimony about the Chicago battery five hours after the Skokie batteiy w'as
probative of the investigation process that led to Otgoo s identification. When Otgoo testified, he
put his credibility in issue, and the trial court properly allowed the State to impeach him with
evidence of an arrest in 2008. No error occurred during the State s direct examination of the

-2-

1-15-3346

auestmg officer or Velez; the State’s remarks in closing were not inflammatory or prejudicial to
Otgoo; and, in any case, jury instructions cured any alleged error.

V

Background
Motion in Limine

If 9

The State moved in limine to admit evidence of other crimes, which the trial court denied.
The motion included 13 other arrests beginning in April 2008 through February 2014

110

The motion also included a battery arrest in Chicago at 1:30 a.m. on March 29, five hours
after the battery against Otgoo. The motion asserted the Chicago police officer who arrested Otgoo
noticed he was wearing the same unusual jacket as in the CTA suspect’s photo that the Skokie
Police Department released. Otgoo was intoxicated, ‘’belligerent and short-tempered that night”
and his behavior quickly escalated from verbal confrontations to angry encounters, ending with
Otgoo beating up a stranger. The trial court found these similarities as well as the proximity in
tune weighed in favor of admissibility despite the potential prejudicial effect.

111
112

Trial Testimony
At trial, Velez testified that on March 28, 2014, around 8:15 p.m., he was riding on the
Skokie Swift CTA train when a stranger began punching and kicking him. Velez was wearing a
leathei jacket and a hoodie. He stated the attack was unprovoked. Velez sustained bruises and cuts
on his lace. Velez got off the train at his usual stop and tried to tell a Chicago police officer on the
platfoim about what happened. The officer told Velez he needed to file a complaint with the Skokie
police, as the attack occurred in Skokie.

113

When Velez arrived at home his relatives took him to the hospital where he was treated
and released. Hospital personnel called the Skokie police.

-3-

1-15-3346

fid

On April 17, Velez'identified Otgoo in a lineup at the Skokie police department. When
asked how he recognized Otgoo, Velez stated he would never forget Otgoo’s face because “he
tried to bash my face in.”

f 15

The CTA security video was shown to the jury. Velez identified himself and Otgoo on the
CTA video, and described Otgoo’s actions in the video as punching and kicking him. No one on
the train helped him or intervened. Since the night of the incident, Velez has felt scaled and
insecure about public transportation, and has traveled on public transportation only during the day
and stopped taking the Skokie Swift C fA train.

H 16

Skokie detective Ronald Glad investigated the CTA battery. Glad testified that a Skokie
police officer interviewed Velez at the hospital shortly after midnight on March 29. Two days later,
the case was assigned to Glad, who interviewed Velez and his family. They, provided photographs
of Velez’s facial bruises. Glad also obtained the CTA train security camera video and captured
several still photographs from the video. The images showed distinctive insignia on the suspect s
jacket. Glad used the still photographs to create a “critical reach bulletin” for distribution to law
enforcement agencies and to the public via media outlets. Glad learned the CTA created its own
bulletin for the Chicago police department, After learning Otgoo’s name from a Chicago police
sergeant, Glad checked the database and discovered Otgoo’s Chicago arrest.

f 17

Chicago police officer Joseph Loiacono testified that he arrested Otgoo m Chicago shortly
after midnight on March 29, 2014. Loiacono and his partner received a radio call about a light on
the northwest side of Chicago. When they arrived at about 1:30 a.m., Loiacono saw Otgoo on the
sidewalk hitting another man, while a third man stood by. Otgoo was wealing a black turtleneck
and an oversized leather-like jacket with multiple insignias. Loiacono anested Otgoo, who was
“irate, belligerent, and extremely aggressive." Otgoo repeatedly called both olficeis names and

-4-

1-15-3346

told them

you.” Otgoo refused to give his name. The officers arrested Otgoo and learned his

name from his ID which was then entered in the database, along with his booking photo. Later that
morning, Otgoo was released from custody on an I-bond.
1 18

On April 17, Loiacono received a call from Skokie detective Michael Lebow, seeking help
in an investigation of the CTA battery. When they met, Lebow showed Loiacono still photographs
taken from the C TA surveillance tapes. Loiacono recognized Otgoo from the distinctive jacket and
his height and stature (5;8” tall and 160 lbs. at the time of arrest). Defense counsel objected to
Loiacono s answer that he “determined” Otgoo was the person in the photo. The trial court
sustained the objection. Loiacono then stated he “believed” it was Otgoo in the photo.

1119

At this juncture, the defense moved for a mistrial, arguing that the State-violated the trial
court s ruling on the motion in limine that prohibited testimony regarding Loiacono’s
identification. The trial court denied the motion for a mistrial because the testimony that was
allowed was within the language discussed regarding the motion in limine.

1120

Loiacono testified further that he told Lebow that Otgoo was due in branch court on April
17 on the street fighting charges. That afternoon, when Otgoo left the courtroom, two Skokie police
detectives arrested him for the CTA battery.

121

Otgoo testified. In 2014, he was 32 years old, had lost his job in construction, and was
living at a homeless shelter. He denied beating up Velez or being on the Skokie Swift CTA that
night. When he went to court “for the self-defense” that was dismissed, the police arrested him as
he left the court.

122

On cross-examination, Otgoo stated his real name was “Yuchin Otogonnamar,” and
admitted having used two other names in the past, “Kim Duhan” as well as “Ganaa Otgoo.”

-5-

1-15-3346

123

After Otgoo testified, the State impeached him with a 2008 aggravated battery conviction
against a police officer. The State introduced a certified copy of the conviction, telling the jury that
Otgoo was “convicted of the felony offense of aggravated battery causing bodily haim to a peace
officer.”
Closing Argument

1 24
125

In closing argument, the State argued that Otgoo’s 2008 conviction showed that Otgoo
“does not follow the rules of civilized society.” Over objection, the State repeated the aigument.
stating the 2008 conviction showed Otgoo’s “contraveption of the rules ot society. The State also
argued that after the CTA incident Velez was fearful about wearing hoodies or riding on the C TA
at night.
Jury Instructions

1126
127

The trial court instructed the jury: ‘"Evidence has been received that the defendant has been
involved in an offense other than that charged in the indictment. This evidence has been leceived
on the issue of the defendant’s identification and may be considered by you only foi that limited
purpose. It is for you to determine whether the defendant was involved in that offense and, if so,
what weight should be given to this evidence on the issue of the defendant s identification.

128

The trial court further instructed: “Evidence ot a defendant s previous conviction of an
offense may be considered by you only as it may affect his believability as a witness and must not
be considered by you as evidence of his guilt to the otfense with which he is chaiged. See IP!
Criminal 3.13.

129

The trial court told the jury to determine facts only from the evidence, apply the law to the
facts, and “in this way decide the case.” The trial court instructed the jury about heating all
testimony the same, whether the witness was in law enforcement or not.

-6-

1-15-3346
1130

Also, "[fjrom time to time it has been the duty of the court to rule on the admissibility of
the evidence. You should not concern yourselves with the reasons for these, rulings. You should
disiegaid questions and exhibits which were withdrawn or to which objections were sustained.”

131

Lastly, the jury was instructed “Opening statements are made by the attorneys to acquaint
you with the facts they expect to prove. Closing arguments are made by the attorneys to discuss
the facts and circumstances in the case and should be confined to the evidence and to reasonable
inferences to be drawn from the evidence. Nether opening statements no closing arguments are
evidence, and any statement or argument made by the attorneys which is not based on the evidence
should be disregarded.”

1132

f he jury convicted Otgoo of aggravated battery on a public way. and acquitted him of
aggravated battery of an individual 60 years or older. 720 ILCS 5/12-3.05 (c) (West 2014); 720
ILCS 5/12-3.05 (d)(1) (West 2014).

133
134

Motion for New Trial
The trial court denied Otgoo’s motion for a new trial. The trial court found the jury verdict
was proper, stating that the information about Otgoo’s identity and how the police arrested him
was limited. The trial court did not allow all the crimes the State sought to introduce, and only the
arresting officer testified about the circumstances of the later incident.

135

The trial court sentenced Otgoo to five years’ imprisonment.

11 36

Analysis

137

Other Crimes Evidence

138

Evidence of other crimes is admissible as long as relevant for any purpose other than to
show a defendant’s propensity to commit crime. People v. Chapman, 2012 IL 111 896, ^ 19. Those
permissible purposes include, for example, motive, intent, identity, lack of mistake, and modus

-7-

1-15-3346
operandi. People v. Dabbs, 239 Ili.2d 277, 283 (2010). Evidence is relevant if it tends to make the
existence of any fact of consequence to the determination of an action more probably oi less
probable than it would be without the evidence. Illgen, 145 Ill. 2d 35o,

j65-66

(1991). But,

evidence of other crimes becomes inadmissible if its relevance relates only to establishing a
defendant’s bad character or propensity to commit the crime. People v. Thingvold, 145 Ill. 2d 441,
452 (1991). For admissibility of other crimes evidence, the defendant need not have been convicted
of the earlier offense. People v. Nidi, 2013 IL App (2d) 110189, 1 47.
139

Generally, other offenses which are close in time to the charged offense will have mote
probative value than remote offenses. People v. Illgen, 145 Ill. 2d 353, 370 (1991). I he tiial couit
. evaluates the probative value of the evidence and makes the decision on a case-by-case basis. Id.
To be introduced, the other-crimes evidence must have some threshold similarity to the ciime
charged. Id. at 372. The test is not one of exact, rigorous identity, and some dissimilarity “will
always exist” between independent crimes. People v. Bedoya, 325 Ill. App. 3d 926, 938 (citing
People v. Robinson, 167 Ill. 2d 53, 65 (1995)).

140

Even if probative, the evidence will not be admitted if its prejudicial impact substantially
outweighs its probative value.” Chapman, 2012 IL 111896, 1 19 (citing People v. Moss, 205 Ill.
2d 139, 156 (2001)). This type of evidence “over persuades the jury which might convict only
because it feels he is a bad person deserving punishment.5' Thing\>old, 145 III. 2d at 452. Otheicrimes evidence should not lead to a “mini-trial5' on the other offenses. People v. McKibbins, 96
Ill. 2d 176, 186-87 (1983).

141

The questions of relevance and probative value fall within the discretion of the tiial comt,
and its decision will not be disturbed absent an abuse of discretion. People v. Wilson, 214 III. 2d
127, 136 (2005). Should the evidence be admitted in error, admission of other-crimes evidence
-8-

1-15-3346

calls foi leversal only where the evidence constitutes “a material factor in the defendant’s
conviction such that, without the evidence, the verdict likely would have been different.” People
v. Hall, 194 Ill. 2d 305, 339 (2000).
142

lo illustrate, the requirement of some threshold similarity to the crime charged was met in
People v. Bartall, 98 Ill. 2d 294, 310 (1983). In Bartall, the trial court admitted evidence that the
defendant was involved in two separate shootings. Id. “Striking similarities” between the
two
shootings related to the issue of the defendant’s mental state. Id. These similarities increased the
relevance of the evidence and ensured that it is not being used solely to establish a defendant’s
criminal propensities. Id In both shootings the defendant shot from a moving car. Id. at 301-02.
Both shootings were unprovoked. Id The second shooting happened 20 hours after the first. Id. at
302. 1 he supreme court found the second shooting incident to be sufficiently similar to the earlier
homicide to make it admissible on the issue of intent, which, taken with the other evidence, “could
provide the basis for an inference that the defendant had the criminal intent required for murder.”
Id. at 312.

143

Bancill noted the importance of avoiding a “mini-trial” of another incident to establish
enough acts from which the defendant’s intent may be inferred. Id. at 315. Even when admitted,
the other offense evidence must not become a focal point of the trial. People v. Thigpen, 306 Ill.
App. 3d 29, 37 (1999) (testimony about other murders and photos of victims sent to jury were
melevant; limiting instruction did not cure resulting unfair prejudice). But where the court limits
the evidence of another crime to what’s relevant to the issue for which the other crime is admitted,
even detailed evidence is not necessarily prejudicial error. See Bartall, 98 Ill. 2d at 315.

144

The State maintains that the evidence of Otgoo’s similar conduct five hours after this
incident explains the circumstances of Otgoo’s arrest for the Skokie assault and establishes a
-9-

1-15-3346
continuing narrative of events surrounding the arrest. The motion in limine described Otgoo as
having a “hair trigger anger towards strangers” The State’s position maintains that Otgoo
exhibited this anger when he attacked Velez and, again, five hours later when he was lighting with
two other individuals in Chicago. Moreover, the investigation of the CTA crime led quickly to an
identification of Otgoo based on the photographs from the CTA security video.
1145

Proximity of time, even when accompanied by proximity of place, is not, standing alone,
sufficient as a basis for permitting evidence of other offenses. People v. Lindgi cn, 79 111.2c! at 1 j9.
See People v. Walls (1965), 33 Ill.2d 394, (proximity plus issue of identity). In Walls, the
prosecution was permitted to prove the car used to transport the victim had been stolen. The
supreme court held the trial court did not err by admitting the evidence and affirmed the conviction.
The evidence advanced a “continuing narrative as well as the drivei s identity. Id. at 398.
See People v. Jackson, 391 Ill. App. 3d 11,34 (evidence of other crimes properly admitted as part
of continuing narrative of crime).

H 46

At trial, Loiacono described the circumstances of Otgoo identification and later ariest foi
the aggravated battery of Velez. The trial court allowed the State to present evidence of Otgoo s
lack of cooperation with police officer, aggressive attitude, and name-calling duiine his anest foi
the second battery. The State adds that the evidence supported Velez’s identification of Otgoo
because he had on the same jacket. Otgoo’s arrest for similar behavior, close in time, and wearing
the same distinctive clothing relates to the reliability of his identification. These circumstances did
not follow the typical timeline of an investigation where a crime occurs and an arrest made
contemporaneously or quickly afterward. Instead, the identification of the suspect on the CTA
train incident did not occur until the Skokie and Chicago police investigation revealed a suspect
wearing the same jacket and engaging in the same behavior a mere five hours apart. The pattern
-10-

1-15-3346

of behavior was consistent. Good police work resulted in Otgoo’s arrest. And the testimony about
the Chicago fight was probative of Otgoo’s identity. The trial court also instructed the jury about
treating all testimony the same, regardless of whether the witness was in law enforcement.
1j47

Moreover, the trial court instructed the jury: “Evidence has been received that the
defendant has been involved in an offense other than that charged in the indictment. This evidence
has been received on the issue of the defendant's identification and may be considered by you only
foi that limited purpose. It is for you to determine whether the defendant was involved in that
offense and, if so, what weight should be given to this evidence on the issue of the defendant’s
identification.” The other offense evidence did not become the “focal point of the trial.” See
Bedoya, 325 Ill. App. 3d at 938, 940 (probative value outweighed by prejudice of “presentation,
in exciuciating detail, of the other offense evidence, the prosecution argument concerning the other
offenses, the trial court’s failure to give a timely limiting instruction, and the trial court’s refusal
to tell the jury [defendant] had been acquitted of charges that he fired his gun at the, three
buildings”). Unlike Bedoya, the level of detail was limited to how the investigation took shape and
the steps that led to Otgoo’s arrest. Without .Loiacono’s testimony, the jury would be left
wondering just how his arrest came about almost three weeks later.

1(48

In addition to Bedoya, Otgoo relies on another case, People v. Nunley, 271 Ill. App. 3d 427
(1995), holding that other crimes evidence unduly prejudiced the defendant. In Nunley, the
defendant was convicted of armed robbery and murder. Nunley, 271 III. App. 3d at 427 The
appellate court ordered a new trial because the trial court'allowed evidence of a separate murder
that included detailed and repetitive testimony of three witnesses regarding acts underlying that
arrest, amounting to a “minitrial” of the collateral offense that was “far more grotesque” than the
conduct for which he was on trial. Id. at 432. The nature of the prior conduct evidence was
-11-

1-15-3346
“extremely inflammatory” (attempting to decapitate his mother and killing her dog), and the jury
instructions as to the limited purpose of the other crimes evidence did not cure the prejudice. Id,
at 433.
Here, the jury was instructed to consider the other crimes evidence for the limited purpose

149

of identification, no “mini-trial” of the Chicago fight occurred, and the officer s testimony
explained the police investigation that resulted in Otgoo’s arrest. Aftef a hearing on the motion in
limine, the trial court, in its discretion, found the probative value.of the “other crimes evidence” of
the March 29 arrest outweighed any prejudice resulting from the jury’s knowledge of lus arrest
five hours later.'
The trial court properly denied the State s motion to admit evidence of 13 prior arrests

1[50

spanning almost six years. Those arrests would have constituted evidence of Otgoo s piopensity
for

fighting and angry outbursts. But the trial court did not err when it allowed the testimony about

Otgoo’s arrest some five hours after' the C fA train incident.
151

The trial court found Loiacono’s testimony about the street fight in Chicago that led to
Otgoo’s arrest was probative of the reliability of the identification. Loiacono testified he was
the front and back with a black
wearing a distinctive oversized jacket that had insignias on
turtleneck underneath. Loiacono described Otgoo’s demeanor (belligerent), the presence of
alcohol on his breath,

and his reaction to the arresting officers (yelling and calling them names).

The similarity of the crimes—an earlier unprovoked violent attack on Velez and the violent fight
and encounter with the police just five hours later-are highly probative of Otgoo’s identity. Not
all prejudicial evidence must be excluded, rather, the trial court should exclude only that which is
“unfairly prejudicial.” (Emphasis in original.) People v. Rutledge, 409 Ill. App. 3d 22, 25 (2011)

-12-

1-15-3346

(citing Nunley, 271 Ill.App.3d at 431). Loiacono’s testimony about the later arrest was not unfairly
prejudicial.

1152

Impeachment

153

Forfeiture

154

At the outset, the State argues Otgoo forfeited any objection to prosecutorial error because
he failed to object when the prosecutor named the prior conviction and he foiled to raise either
issue in his motion for a new trial. The State maintains further that even if Otgoo had not forfeited,
no error occurred. Otgoo responds that he preserved his argument because he objected during
Loiacono’s testimony.

1155

To pieserve an issue for appeal, a litigant must object both at trial and in a written posttrial
s

motion. Peopley. Enoch, 122 Ill.2d 176, 186 (1988) (“Both a trial objection min'a written posttiial motion raising the issue are required for alleged errors that could have been raised during
tiial. (Emphasis in original.)). But before addressing either prong of Otgoo’s argument, we
consider whether any error occurred. See People v. Piatkowski, 225 Ill. 2d 551, 565 (2007) ("first
step [of the plain error analysis] is to determine whether error occurred”).

156
157

Admission of Prior Conviction for Impeachment
Otgoo argues that the impeachment evidence of his 2008 aggravated battery conviction,
deprived him of his right to a fair trial because the conviction had little probative value as to his
credibility and was improper propensity evidence. The State responds that the trial court balanced
the Montgomery factors (People v. Montgomery, 47 Ill. 2d 510 (1971)), and properly allowed the
evidence. People v Atkinson, 186 Ill. 2d 450, 458 (2004).

158

Under the Montgomery rule, evidence of a prior conviction is admissible for impeachment
vfoeie. (i) the crime carried a sentence of imprisonment for more than one year or involved

-13-

1-15-3346
dishonesty or false statement regardless of the punishment; (ii) the conviction was within 10 years;
and (iii) the probative value of the conviction outweighs the danger of unfair prejudice.
Montgomery, 47 Ill.

2d 510 at 516. Even when relevant for a permissible purpose, however, the

evidence should not be admitted if its probative value is substantially outweighed by its prejudicial
effect. People v. Moss, 205 Ill; 2d 139, 156 (2001). That a prior conviction is for an offense
identical to the offense being tried does not preclude its use for purposes of impeachment. People
v. Melton, 2013 IL App (1st) 060039, 1 18 (citing People

Harden, 2011 IL App (1st) 092309, 1

49). The credibility of the witnesses and the weight to be given their testimony as a whole are
matters for the jury to decide. Id. 1 37. Lastly, the determination of admissibility comes within the
trial court’s sound discretion. Montgomery, 47 III.2d at 517-18.
1159

Even though the stakes are higher for a defendant who testifies, and the balancing test must
be carefully applied, the same analysis applies. Otgoo testified and, therefore, put his credibility
in issue. “Under Montgomery, any felony conviction is presumed to relate to testimonial deceit
and is also admissible.” People v.

Paul, 304 III. App. 3d 404, 410 (1999). Paul involved

impeachment of nondefendant witnesses via prior convictions. But, as stated, prior felony
convictions relate to a witness’s veracity. For example, prior convictions for crimes other than for
indicative of truthfulness. People v. Neely,20\3
an offense based on dishonesty are admissible as
IL App (1st) 120043, K 21. See People

Williams, 230 Ill. App.3 d 761, 784-85 (1992) (prior

murder conviction admissible to impeach defendant in muidei case).

160

The customary safeguard against the danger of prejudice rests with an instruction that the
defendant’s

criminal record may be considered only as it bears on the weight to be given to the

defendant's testimony. Montgomery, 47 111. 2d at 514. The jury instruction here (I.P.i. 3.13) did
just that. See Melton, 2013 IL App (1st) 060039, 1 18 (evidence of conviction for possession of

-14-

1-15-3346

controlled substance properly allowed despite potential for prejudice; conviction was probative of
defendant’s ci edibility and jury admonished to consider conviction only for impeachment); People
v. Blankenship, 353 Ill. App. 3d 322, 326 (2004) (in trial for AAUW, trial court not required to
exclude defendant s two prior convictions lor AUUW, especially when jury instructed that prior
conviction could only be considered for purposes of assessing defendant's credibility).

1f6l

Moreover, the prosecutor properly named the offense during impeachment. “Our case law
interpreting Montgomery suggests that it is the nature of a past conviction, not merely the fact
ol it, that aids the jury in assessing a witness’ credibility. [Citations.] The mere-fact approach
undermines the Montgomery rule and inhibits the jury’s evaluation of a witness’ credibility by
eliminating the jury’s consideration of the nature of the past crime.” Atkinson, 186 Ill. 2d at
458. Otgoo complains that the facts of his 2008 conviction for Aggravated Battery to a Police
Officer was not fully explained to the jury (Otgoo states he spit on the officer), but the law requires
the conviction to be named.

162

We presume that the trial judge knew and properly applied the law, unless the record
affirmatively shows otherwise. People v. Gaultney, 174 Ill. 2d 410, 420 (1996). “[I]t would
noimally be assumed that a trial judge had given appropriate consideration to the relevant
[Montgomery] factors without requiring a specific evaluation in open court of each of them.”
People v. Washington, 55 Ill. 2d 521, 523-24 (1973).

163

.

It follows then, that the trial court in its discretion properly allowed the impeachment

evidence. It matters not whether the battery to a police officer was spitting or using a bat or some
other means of battery. Thus, Otgoo cannot establish error for the admission of the evidence, and
no error occurred, let alone plain error. See People v. Bannister, 232 Ill. 2d 52, 71 (2008) (“Having
found no error, there can be no plain error.”).
-15-

1-15-3346
Moreover, even if error was present, the evidence was not closely balanced. People

1164

Naylor, 229 Ill. 2d 584, 593 (2008). Good police work resulted iin an identification of Otgoo as the
assailant on the CTA train; the victim identified him both in a lineup and m court; and Otgoo s
sole defense was his own testimony that he had not been on the train. This testimony was
unconvincing. Considering the jury’s acquittal on the second charge of aggiavated batteiy of
someone 60 years or older, the jury carefully considered the evidence and returned a wellconsidered verdict.
Prosecutorial Misconduct

165

Otgoo argues the State violated his right to a fair trial by (i) deliberately eliciting prejudicial

1166

identification testimony from Loiacono in violation of the trial couit s luling on the motion in
limine; (ii) deliberately eliciting irrelevant testimony from Velez about his psychological harm and
then making inflammatory remarks regarding Velez’s mental state, and (iii) inviting the juiy to
draw impermissible inferences from Otgoo’s prior conviction. Otgoo asserts the cumulative effect
of multiple errors deprived him of a fair trial, citing People v. Davidson, 2j5 Ill. App. jd 605, 6
(1992), and People v. Quiver, 205 Ill. App. 3d 1067 (1990). These cases held that where numerous
instances of prosecutorial misconduct in closing argument aie alleged, a leviewing couit may
consider the cumulative effect rather than assess the prejudicial effect of each isolated comment.
In Quiver, however, the court found no reversible erroi because comments did not substantially
prejudice the defendant; in any case, failure to object duiing aigument forfeited the issue. Id. at
1072.

1167
168

Violation of Motion in Limine Ruling
At the hearing on the defense motion in limine, the State agreed that any witness’s
statement regarding the person on the CTA video should be limited to a belief or an opinion, not a

-16-

1-15-3346

conclusive identification of Otgoo. Defense counsel objected to Loiacono’s trial testimony that he
reviewed the video of the CIA incident and “determined” that he was the same person arrested on
March 29. The objection was sustained. At the close ot trial, the trial court instructed the jury to
disiegaid questions and exhibits which were withdrawn or to which objections were sustained.
169

The prosecutors asked Loiacono: “What did you tell Officer Lebow about the images and
the still photographs that he showed to you?” Loiacono answered, “I determined *** he was the
individual I arrested on March 29th.” The trial court immediately sustained defense counsel’s
objection. The prosecutor then rephrased: “Did you have an opinion as to whether you had seen
the individual before?” Loiacono then testified he “believed” the individual in the photographs to
be the same individual he arrested. Defense counsel moved for a mistrial, arguing Loiacono’s
answer violated the court’s ruling on the motion in limine, and the error was not cured-by the
objection being sustained. The trial court denied the mistrial motion. [C 386]

170

Otgoo relies on People v. Thompson, 2016 IL 11867. But Thompson held “[t]here is no per
.ye rule against admission of a law enforcement officer's identification testimony.” Peopl e v.
Thompson, 2016 IL 118667,1 56. And, again, the trial court instructed the jury about treating all
testimony the same, whether the witness was a law enforcement officer or not.

171

Moreover, the trial judge instructed the jury that closing arguments should be “confined to
the evidence and to reasonable inferences to be drawn from the evidence.” The trial court further
told the jury that neither opening nor closing arguments constitute evidence, and any statement or
argument made by either side not based on the evidence should be disregarded. Also, that jury
disregard questions and exhibits which were withdrawn or to which objections were sustained.,
and testimony and exhibits which were refused or stricken. The jury should consider only the
testimony of the witnesses and the exhibits received by the court.
-17-

1-15-3346
The sustained objection to Loiacono’s identification answei indicates the question was

1172

improper; the jury was

instructed to disregard both the question and Loiacono’s answer. We find

the trial court’s ruling on the motion in limine was not violated
Velez's Testimony

1173

Otgoo argues that the State elicited irrelevant testimony from Velez about his

174

psychological harm exacerbated by the prosecutor ’s inflammatory remarks.
Velez

175

testified about his physical injuries but also stated that he stopped taking public

transportation at night because he was ‘‘scared. ” I-Ie also testified he would never wear a hoodie
again,

and that he would “never forget” Otgoo’s face. Otgoo argues he was prejudiced when the

prosecutor repeated these objectionable comments in closing argument, attempting to engender
sympathy for Velez and persuade jurors to convict based on emotion.
The State responds that the complamed-of testimony described Velez’s injuries and was

176

relevant to the charge of aggravated battery. The prosecutor argued that Velez’s life had changed.
The State also responds that the prosecutor properly argued the strength of Velez’s memory was
partially due to the trauma he had suffered.
Prosecutors have wide latitude in their closing arguments and may comment on and draw

177

inferences from the evidence. People v.

Delaney, 359 Ill. App. 3d 458, 470 (2005). A prosecutor’s

remarks do not warrant reversal unless they are so prejudicial that, absent those remarks, there is
doubt as to whether

the jury would have rendered a guilty verdict. Id. Here, the prosecutor

summarized Velez’s testimony that he no longer used public transportation at night or wore
hoodies, and that he had a clear memory of Otgoo s
on

face. The argument was fair argument based

Velez’s testimony. We do not view these remarks as mflammatoiy oi engendering undue

sympathy for the victim.
-18-

1-15-3346

178

And, again, we note that the trial court properly gave jury instructions regarding the
aiguments of counsel; thereby, curing any possible error.

1 79

180

Closing Argument
Next, Otgoo asserts that the State suggested a propensity to commit crimes when it
repeatedly argued that Otgoo Aloes not follow the rules

of a civil society and urged the jury to

consider Otgoo’s past conviction as pi oof In making this argument, Otgoo misquotes Peopl
e v.
Williams, .161 Ill. 2d 1, 39 (1994) regarding an erosion of the Montgomery rule. Be that as it may,
the conviction in Williams involved voluntary manslaughter and

was improperly admitted as

relevant to the question of the defendant's guilt, and not for impeachment. Id. at 41. Because there
was overwhelming evidence of the defendant’s guilt, this
error was not so prejudicial as to have
denied a fair trial and held harmless. Id. at 52.

181

A prosecutor may not characterize a defendant as “evil,” but may comment unfavorably

on

the evil effects of the crime and urge the jury to “administer the law without fear.”
People v.
Herndon, 2015 Ill App (1st) 123375, f 44 (quoting People v. Nicholas, 218 Ill. 2d 104. 121-122
(2005). On the other hand, the prosecution cannot focus its argument on broader problems of crime
in society or engage in a general denunciation of society’s ills. Id. In Herndon, this court found'
no
error in the prosecutor’s argument that the defendant’s conduct

in selling narcotics had a negative

impact on the families that lived iin the neighborhood. Id. Similarly, the emphasis was on Otgoo’s
conduct specifically. A civil society iis one in which persons may safely travel from place to place
without being attacked, whether verbally or physically. Here, Otgoo attacked, and Velez suffered
both mental and physical harm.

182

The situation here is distinguishable from that in People v. Slabaugh, 323 Ill. App.3d 723.
7j1-32 (2001). There, the prosecutor made objectionable

-19-

comments in closing that did not relate

1-15-3346

to the issue
subject even

of whether the defendant assaulted a police officer. The prosecutor returned to the
after the trial court sustained defense counsel’s objection and instructed the prosecutor

to move on. “Although the prompt sustaining of a defense objection and an instruction to disregard
the improper statements will generally cure any error, when the State repeatedly attempts to make
unfounded arguments
183

, the defendant may be prejudiced despite the sustaining of the objections.

closely balanced and the prosecutor’s “multiple
Otgoo maintains that the evidence was
to convict” based on emotional
inflammatory, improper- statements could have caused the juiy
appeal rather than a finding of guilt beyond a

reasonable doubt. The State argues that even if the

prosecutor’s remarks in closing argument were error, they did not amount to plain error.
184

ot closely balanced. The CfA security video
As we have already held, the evidence was n
captured the entire incident, including views

of the assailant’s face and the distinctive jacket. Two

weeks later, Velez identified Otgoo in a lineup, and at trial identified Otgoo. The jacket Otgoo
wore at the time of his arrest five hours later was
distinctive insignia. These facts compel a

easily identified as the same jacket due to its

conclusion of guilt beyond a reasonable doubt. See

Deloney, 3 59 III. App.3d at 470 (overwhelming evidence of defendant’s guilt mitigated likehhood
jury convicted defendant based on State’s improper remarks).
Electronic Citation Fee

185
186

Finally, Otgoo concedes his final issue

regarding the improper assessment of the electronic

citation fee is unreviewable.
187

Affirmed.

-20-

maV
A 0^ fr"''
T’ns Ve^ - .
cna'"1^”

2019 IL App (1st) 153346
No. 1-15-3346
Order filed December 23, 2019
Modified after denial of rehearing February 10, 2020

’os

First Division
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

)

THE PEOPLE OF THE STATE OF ILLINOIS,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.

GANAA OTGOO
Defendant-Appellant.

Appeal from the Circuit Court
of Cook County.

No. 14 CR 08221

The Honorable
Lauren Gottainer Edidin,
Judge, presiding.

JUSTICE HYMAN delivered the judgment of the court.
Presiding Justice Griffin and Justice Walker concurred in the judgment.
ORDER

11

Held-.

The trial court improperly admitted testimony regarding defendant’s actions
toward the arresting officers during a separate incident five hours after the assault,
for fighting at a different location; the error was harmless because the evidence was
not closely balanced and the jury was properly instructed. The trial court did not
abuse its discretion in admitting defendant’s aggravated battery conviction for
impeachment because its probative value was not substantially outweighed by any
undue prejudice; and the alleged prosecutorial misconduct did not prejudice the
defendant and there was no cumulative effect of any alleged error on the guilty
verdict.

1-15-3346

12

After a jury trial, defendant Ganaa Otgoo was convicted of aggravated battery of Armando
Velez on a CTA train as it traveled through Skokie, Illinois. Velez reported the attack to the Skokie
police. Five hours later, Chicago police arrested Otgoo for fighting on a street corner and he was
released on a recognizance “I-bond.”

13

About two weeks later, in the course of investigating the CTA battery, Skokie police
contacted the arresting officer from the Chicago case asking for assistance. The officer identified
Otgoo from still photographs taken from the CTA security tapes that recorded the incident.
Because Otgoo was due in court for the Chicago battery charge on April 17, the two officers agreed
that someone from the Skokie police department would meet Otgoo at the courtroom when he
made his appearance. On April 17, Skokie police detectives arrested Otgoo on his way out of the
courthouse. The same day, Velez identified Otgoo in a five-person lineup.

14

The State charged Otgoo with two counts of aggravated battery; one count based on public
property and the other based on the victim being 60 years or older. 720 ILCS 5/12-3.05 (c) (West
2014); 720 ILCS 5/12-3.05 (d)(1) (West 2014). The jury convicted Otgoo of the count of
aggravated battery on public property and acquitted on the second count. Otgoo was sentenced to
five years’ imprisonment.

15

Before Otgoo’s trial, the State sought to admit evidence of other crimes, including 13
previous arrests as well as the Chicago arrest five hours after the Skokie incident. The trial court
allowed only the Chicago arrest to be introduced through live testimony because it related to the
investigation of the Skokie crime and led to Otgoo’s arrest.

16

We affirm. First, although the testimony about Otgoo’s actions during his arrest for the
Chicago battery five hours after the Skokie battery was prejudicial and not probative of the
investigation process that led to Otgoo’s identification, and was admitted in error, the evidence

-2-

1-15-3346
adduced at trial was overwhelming and the error was cured by the jury instruction. We cannot say
the jury would have acquitted had the trial court not allowed Loiacono’s testimony about Otgoo’s
behavior during the March 29 arrest. Second, when Otgoo testified, he put his credibility in issue,
and the trial court properly allowed the State to impeach him with evidence of an arrest in 2008.
Finally, no error occurred during the State’s direct examination of Velez; the State’s remarks in
closing were not inflammatory or prejudicial to Otgoo; and, in any case, jury instructions cured
any alleged error.

V

Background

P

Motion in Limine

P

The State moved in limine. to admit evidence of other crimes, which the trial court denied.
The motion included 13 other arrests beginning in April 2008 through February 2014.

II io

The motion also included a battery arrest in Chicago at 1:30 a.m. on March 29, five hours
after the battery against Otgoo. The motion asserted the Chicago police officer who arrested Otgoo
noticed he was wearing the same unusual jacket as in the CTA suspect’s photo that the Skokie
Police Department released. Otgoo was intoxicated, “belligerent and short-tempered that night”
and his behavior quickly escalated from verbal confrontations to angry encounters, ending with
Otgoo beating up a stranger. The trial court found these similarities as well as the proximity in
time weighed in favor of admissibility despite the potential prejudicial effect.

PI
U12

Trial Testimony
At trial, Velez testified that on March 28, 2014, around 8:15 p.m., he was riding on the
Skokie Swift CTA train when a stranger began punching and kicking him. Velez was wearing a
leather jacket and a hoodie. He stated the attack was unprovoked. Velez sustained bruises and cuts
on his face. Velez got off the train at his usual stop and tried to tell a Chicago police officer on the

-3-

1-15-3346
platform about what happened. The officer told Velez he needed to file a complaint with the Skokie
police, as the attack occurred in Skokie.
113

When Velez arrived at home his relatives took him to the hospital where he was treated
and released. Hospital personnel called the Skokie police.

114

On April 17, Velez identified Otgoo in a lineup at the Skokie police department. When
asked how he recognized Otgoo, Velez stated he would never forget Otgoo’s face because “he
tried to bash my face in.”

115

The CTA security video was shown to the jury. Velez identified himself and Otgoo on the
CTA video, and described Otgoo’s actions in the video as punching and kicking him. No one on
the train helped him or intervened. Since the night of the incident, Velez has felt scared and
insecure about public transportation, and has graveled on public transportation only during the day
and stopped taking the Skokie Swift CTA train.

116

Skokie detective Ronald Glad investigated the CTA battery. Glad testified that a Skokie
police officer interviewed Velez at the hospital shortly after midnight on March 29. Two days later,
the case was assigned to Glad, who interviewed Velez and his family. They provided photographs
of Velez’s facial bruises. Glad also obtained the CTA train security camera video .and captured
several still photographs from the video. The images showed distinctive insignia on the suspect’s
jacket. Glad used the still photographs to create a “critical reach bulletin” for distribution to law
enforcement agencies and to the public via media outlets. Glad learned the CTA created its own
bulletin for the Chicago police department. After learning Otgoo’s name from a Chicago police
sergeant, Glad checked the database and discovered Otgoo’s Chicago arrest.

117

Chicago police officer Joseph Loiacono testified that he arrested Otgoo in Chicago shortly
after midnight on March 29, 2014. Loiacono and his partner received a radio call about a fight on

-4-

1-15-3346
the northwest side of Chicago. When they arrived at about 1:30 a.m., Loiacono saw Otgoo on the
sidewalk hitting another man, while a third man stood by. Otgoo was wearing a black turtleneck
and an

oversized leather-like jacket with multiple insignias. Loiacono arrested Otgoo, who was

“irate, belligerent, and extremely aggressive.” Otgoo repeatedly called both officers names and
told them “f*** you.” Otgoo refused to give his name. The officers arrested Otgoo and learned his
name from his ID which was then entered in the database, along with his booking photo. Later that
morning, Otgoo was released from custody on an I-bond.
H18

On April 17, Loiacono received a call from Skokie detective Michael Lebow, seeking help
in an investigation of the CTA battery. When they met, Lebow showed Loiacono still photographs
taken from the CTA surveillance tapes. Loiacono recognized Otgoo from the distinctive jacket and
his height and stature (5’8” tall and 160 lbs. at the time of arrest). Defense counsel objected to
Loiacono’s answer that he “determined” Otgoo was the person in the photo. The trial court
sustained the objection. Loiacono then stated he “believed” it was Otgoo in the photo.

If 19

At this juncture, the defense moved for a mistrial, arguing that the State violated the trial
court’s ruling on the motion in limine that prohibited testimony regarding Loiacono’s .
identification. The trial court denied the motion for a mistrial because the testimony that was
allowed was within the language discussed regarding the motion in limine.

1120

Loiacono testified further that he told Lebow that Otgoo was due in branch court on April
17 on the street fighting charges. That afternoon, when Otgoo left the courtroom, two Skokie police
detectives arrested him for the CTA battery.

1121

was
Otgoo testified. In 2014, he was 32 years old, had lost his job in construction, and
living at a

homeless shelter. He denied beating up Velez or being on the Skokie Swift CTA that

-5-

1-15-3346

night. When he went to court “for the self-defense” that was dismissed, the police arrested him as
he left the court.

122

On cross-examination, Otgoo stated his real name was “Yuchin Otogonnamar,” and
admitted having used two other names in the past, “Kim Duhan” as well as “Ganaa Otgoo.”

123

After Otgoo testified, the State impeached him with a 2008 aggravated battery conviction
against a police officer. The State introduced a certified copy of the conviction, telling the jury that
Otgoo was “convicted of the felony offense of aggravated battery causing bodily harm to a peace
officer.”
Closing Argument

124
125

In closing argument, the State argued that Otgoo’s 2008 conviction showed that Otgoo
“does not follow the rules of civilized society.” Over objection, the State repeated the argument,
stating the 2008 conviction showed Otgoo’s “contravention of the rules of society.” The State also
argued that after the CTA incident Velez was fearful about wearing hoodies or riding on the CTA
at night.

126
127

Jury Instructions
The trial court instructed the jury: “Evidence has been received that the defendant has been
involved in an offense other than that charged in the indictment. This evidence has been received
on the issue of the defendant’s identification and may be considered by you only for that limited
purpose. It is for you to determine whether the defendant was involved in that offense and, if so,
what weight should be given to this evidence on the issue of the defendant’s identification.”

128

The trial court further instructed: “Evidence of a defendant’s previous conviction of an
offense may be considered by you only as it may affect his believability as a witness and must not

-6-

1-15-3346
be considered by you as evidence of his guilt to the offense with which he is charged.” See IP!
Criminal 3.13.
1129

The trial court told the jury to determine facts only from the evidence, apply the law to the
facts, and “in this way decide the case.” The trial court instructed the jury about treating all
testimony the same, whether the witness was in law enforcement or not.

1130

Also, “[fjrom time to time it has been the duty of the court to rule on the admissibility of
the evidence. 'You should not concern yourselves with the reasons for these rulings. You should
disregard questions and exhibits which were withdrawn or to which objections were sustained.”

U 31

Lastly, the jury was instructed “Opening statements are made by the attorneys to acquaint
you with the facts they expect to prove. Closing arguments are made by the attorneys to discuss
the facts and circumstances in the case and should be confined to the evidence and to reasonable
inferences to be drawn from the evidence. Nether opening statements no closing arguments are
evidence, and any statement or argument made by the attorneys which is not based on the evidence
should be disregarded.”

H32

The jury convicted Otgoo of aggravated battery on a public way. and acquitted him of
aggravated battery of an individual 60 years or older. 720 ILCS 5/12-3.05 (c) (West 2014); 720
ILCS 5/12-3.05 (d)(1) (West 2014).

1|33
U 34

Motion for New Trial
The trial court denied Otgoo’s motion for a new trial. The trial court found the jury verdict
was proper, stating that the information about Otgoo’s identity and how the police arrested him
was limited. The trial court did not allow all the crimes the State sought to introduce, and only the
arresting officer testified about the circumstances of the later incident.

1135

The trial court sentenced Otgoo to five years’ imprisonment.

-7-

1-15-3346

If 36

Analysis

f 37

Other Crimes Evidence

138

In our initial decision, we held that no error occurred when the trial court allowed Loiacono
to testify about the circumstances of Otgoo’s arrest five hours after the CTA incident. Loiacono
related the process of identifying Otgoo from the still photographs shown to him by Skokie police
who were investigating the incident. Loiacono testified that he recognized Otgoo from his
distinctive jacket, height, and stature. None of this identification testimony relates to Otgoo’s
behavior at the time of the arrest. So the testimony about Otgoo’s belligerent and irate behavior,
the presence of alcohol on his breath, and his reaction to the arresting officers (yelling profanities
and calling them names) was all unnecessary to the narrative of “good police work.”

139

We hold the detailed description of Otgoo’s name-calling and general behavior toward the
police officers was unnecessary to establish reliability of Loiacono’s identification testimony.
Prejudicial evidence denies a defendant a fair trial when it is a “material factor in his conviction
such that without the evidence the verdict likely would have been different.” Cortes, 181 Ill. 2d at
285. But the error in allowing this testimony, even though an abuse of discretion, was harmless
considering Velez’s eyewitness identification, the CTA video from the night of the incident, and
the jury instructions regarding use of this testimony.

1 40

Evidence of other crimes is admissible as long as relevant for any purpose other than to
show a defendant’s propensity to commit crime. People v. Chapman, 2012 IL 111896,

19. Those

permissible purposes include, for example, motive, intent, identity, lack of mistake, and modus
operandi. People v. Dabbs, 239111.2d 277,283 (2010). Evidence is relevant if it tends to make the
existence of any. fact of consequence to the determination of an action more probably or less
probable than it would be without the evidence. People v. Illgen, 145 Ill. 2d 353, 365-66 (1991).

-8-

1-15-3346
Generally, other offenses which are close in time to the charged offense will have more probative
value than remote offenses. Id. at 370. The trial court evaluates the probative value of the evidence
and makes the decision on a case-by-case basis. Id. But, evidence of other crimes becomes
inadmissible if its relevance relates only to establishing a defendant’s bad character or propensity
to commit the crime. People v. Thingvold, 145 Ill. 2d 441, 452 (1991).

141

Even if probative, the evidence should not be admitted if its prejudicial impact
“substantially outweighs its probative value.” Chapman, 2012 IL 111896, 1 19 (citing People v.
Moss, 205 Ill. 2d 139, 156 (2001)). This type of evidence “over persuades the jury which might
convict only because it feels he is a bad person deserving punishment.” Thingvold, 145 Ill. 2d at
452. Other-crimes evidence should not lead to a “mini-trial” on the other offenses. People v.
McKibbins, 96 Ill. 2d 176, 186-87 (1983). A trial court carefully limits other crimes evidence to
that which is relevant for the purposes for which it was introduced. People v. Thigpen, 306 Ill.
App. 3d 29,‘37 (1999) (citing Nunley, 271 Ill. App. 3d at 431). The questions of relevance and
probative value fall within the discretion of the trial court, and its decision will not be disturbed
absent an abuse of discretion. People v. Wilson, 214 Ill. 2d 127, 136 (2005).

142

To illustrate, the requirement of some threshold similarity to the crime charged was met in
People v. Bartall, 98 Ill. 2d 294, 310 (1983). In Bartall, the trial court admitted evidence that the
defendant was involved in two separate shootings. Id. “Striking similarities” between the two
shootings related to the issue of the defendant’s mental state. Id. These similarities increased the
relevance of the evidence and ensured that it is not being used solely to establish a defendant’s
criminal propensities. Id. In both shootings the defendant shot from a moving car. Id. at 301-02.
Both shootings were unprovoked. Id. The second shooting happened 20 hours after the first. Id. at
302. The supreme court found the second shooting incident to be sufficiently similar to the earlier

-9-

1-15-3346
homicide to make it admissible on the issue of intent, which, taken with the other evidence, “could
provide the basis for an inference that the defendant had the criminal intent required for murder.”
Id. at 312.

143

Bartall noted the importance of avoiding a “mini-trial” of another incident to establish
enough acts from which the defendant’s intent may be inferred. Id. at 315. Even when admitted,
the other offense evidence must not become a focal point of the trial. People v. Thigpen, 306 Ill.
App. 3d 29, 37 (1999) (testimony about other murders and photos of victims sent to jury were
irrelevant; limiting instruction did not cure resulting unfair prejudice). But where the court limits
the evidence of another crime to what’s relevant to the issue for which the other crime is admitted,
even detailed evidence is not necessarily prejudicial error. See Bartall, 98 Ill. 2d at 315.

144

The State maintains that the evidence of Otgoo’s similar conduct five hours after this
incident explains the circumstances of Otgoo’s arrest for the Skokie assault and establishes a
continuing narrative of events surrounding the arrest. The motion in limine described Otgoo as
having a “hair trigger anger towards strangers.” The State’s position maintains that Otgoo
exhibited this anger when he attacked Velez and, again, five hours later when he was fighting with
two other individuals in Chicago. Moreover, the investigation of the CTA crime led quickly to an
identification of Otgoo based on the photographs from the CTA security video.

145

Proximity of time, even when accompanied by proximity of place, is not, standing alone,
sufficient as a basis for permitting evidence of other offenses. People v. Lindgren, 79111.2d at 139.
See People v. Walls (1965), 33 I11.2d 394, (proximity plus issue of identity). In Walls, the
prosecution was permitted to prove the car used to transport the victim had been stolen. The
supreme court held the trial court did not err by admitting the evidence and affirmed the conviction.
The evidence advanced a “continuing narrative” as well as the driver’s identity. Id. at 398.

-10-

1-15-3346
See People v. Jackson, 391 Ill. App. 3d 11, 34 (evidence of other crimes properly admitted as part
of continuing narrative of crime).

146

At trial, Loiacono described the circumstances of Otgoo identification and later arrest for
the aggravated battery of Velez. The trial court allowed the State to present evidence of Otgoo’s
lack of cooperation with police officers, aggressive attitude, and name-calling during his arrest for
the second battery. The State adds that the evidence supported Velez’s identification of Otgoo
because he had on the same jacket. Otgoo’s arrest for similar behavior (public fighting), close in
time, and wearing the same distinctive clothing relates to the reliability of his identification. These
circumstances did not follow the typical timeline of an investigation where a crime occurs and an
arrest made contemporaneously or quickly afterward. Instead, the identification of the suspect on
the CTA train incident did not occur until the Skokie and Chicago police investigation revealed a
suspect wearing the same jacket and engaging in the same behavior a mere five hours apart. The
pattern of behavior was consistent. Good police work resulted in Otgoo’s arrest. And the testimony
about the Chicago fight was probative of Otgoo’s identity. The trial court found these similarities
and the proximity in time weighed in favor of admissibility despite the potential prejudicial effect.
The trial court sustained an objection to Loiacono’s testimony that he “determined” the assailant
in the video was Otgoo; instead, Loiacono gave his opinion that based on his observations he
“believed” it was Otgoo.

147

Moreover, the trial court instructed the jury: “Evidence has been received that the
defendant has been involved in an offense other than that charged in the indictment. This evidence
has been received on the issue of the defendant’s identification and may be considered by you only
for that limited purpose. It is for you to determine whether the defendant was involved in that
offense and, if so, what weight should be given to this evidence on the issue of the defendant’s

-11-

1-15-3346
identification.” The trial court also instructed the jury about treating all testimony the same,
regardless of whether the witness was in law enforcement.

H48

After a hearing on the motion in limine, the trial court, in its discretion, found the probative
value of the “other crimes evidence” of the March 29 arrest outweighed any prejudice resulting
from the jury’s knowledge of his arrest five hours later. The trial court found Loiacono’s testimony
about the street fight in Chicago that led to Otgoo’s arrest as probative of the reliability of the
identification and allowed Loiacono’s testimony that explained the police investigation that
resulted in Otgoo’s arrest. Loiacono testified Otgoo was wearing a distinctive oversized jacket that
had insignias on the front and back with a black turtleneck underneath. Loiacono described
Otgoo’s demeanor (belligerent), the presence of alcohol on his breath, and his reaction to the
arresting officers (yelling and calling them names). But Loiacono did not testify that, Otgoo’s
explosive behavior toward the arresting officers was a factor in his concluding that the person in
the video was the same person he arrested.

H 49

At the end of the trial, the trial court instructed the jury: “Evidence has been received that'
the defendant has been involved in an offense other than that charged in the indictment, This
evidence has been received on the issue of the defendant’s identification and may be considered
by you only for that limited purpose. It is for you to determine whether the defendant was involved
in that offense and, if so, what weight should be given to this evidence on the issue of the
defendant’s identification.”

1150

While Otgoo’s behavior during his arrest for a different offense should not have been
before the jury, it did not become the “focal point of the trial.” See Bedoya, 325 Ill. App. 3d at
938, 940 (probative value outweighed by prejudice of “presentation, in excruciating detail, of the
other offense evidence, the prosecution argument concerning the other offenses, the trial court’s

-12-

1-15-3346

failure to give a timely limiting instruction, and the trial court’s refusal to tell the jury [defendant]
had been acquitted of charges that he fired his gun at the three buildings”). And unlike in Bedoya,
the limiting instruction guided the jury as to the use of Loiacono’s testimony detailing how the
investigation took shape and the steps that led to Otgoo’s arrest. Without Loiacono’s testimony,
the jury would be left wondering just how his arrest came about almost three weeks later.
K51

In addition to Bedoya, Otgoo relies on another case, People v. Nunley, 271 Ill. App. 3d 427
(1995), holding that other crimes evidence unduly prejudiced the defendant. In Nunley, the
defendant was convicted of armed robbery and murder. Id. at 427. The appellate court ordered a
new trial because the trial court allowed evidence of a separate murder that included detailed and
repetitive testimony of three witnesses regarding acts underlying that arrest, amounting to a
“minitrial” of the collateral offense that was “far more grotesque” than the conduct for which he
was on trial. Id. at 432, The nature of the prior conduct evidence was “extremely inflammatory”
(attempting to decapitate his mother and killing her dog), and the jury instructions as to the limited
purpose of the other crimes evidence did not cure the prejudice. Id. at 433.

U52

The trial court properly denied the State’s motion to admit evidence of 13 prior arrests
spanning almost six years. Those arrests would have constituted evidence of Otgoo’s propensity
for fighting and angry outbursts. The trial court did not err when it allowed the testimony about
Otgoo’s arrest some five hours after the CTA train incident, but the details related by Loiacono
should have been excluded because any probative value of the details was outweighed by the
prejudice of hearing about Otgoo’s explosive behavior during the later arrest.

153

Erroneous admission of other crimes evidence ordinarily calls for reversal because of the
high risk of prejudice. People v. Cortes, 181 Ill. 2d 249,285 (1998). But the “improper introduction
of other-crimes evidence is harmless error when a defendant is neither prejudiced nor denied a. fair

-13-

1-15-3346

trial based uponits admission.” People v. Nieves, 193 Ill. 2d 513,530 (2000). Even where admitted
in error, admission of other-crimes evidence calls for reversal only if the evidence constitutes “a
material factor in the defendant’s conviction such that, without the evidence, the verdict likely
would have been different.” People v. Hall, 194 Ill. 2d 305, 339 (2000). In other words, reversal
is not required when the error is unlikely to influence the jury. Nieves, 193 Ill. 2d at 530. The
videotape evidence and Velez’s identification of Otgoo alone support the finding of guilt. The jury
instruction limiting consideration of the evidence to evaluating the reliability of Loiacono’s
identification cured the prejudicial effect of hearing about Otgoo’s actions during his arrest.
Loiacono’s testimony was not a material factor in the conviction. We cannot say the outcome of
Otgoo’s trial would have differed had the trial court excluded the evidence.

1154

Impeachment

H 55

Forfeiture

1156

At the outset, the State argues Otgoo forfeited any objection to prosecutorial error because
he failed to object when the prosecutor named the prior conviction and he failed to raise either
issue in his motion for a new trial. The State maintains further that even if Otgoo had not forfeited,
no error occurred. Otgoo responds that he preserved his argument because he objected during
Loiacono’s testimony.

K 57

To preserve an issue for appeal, a litigant must object both at trial and in a written posttrial
motion. People v. Enoch, 122 Ill. 2d 176, 186 (1988) (“Both a trial objection and a written post­
trial motion raising the issue are required for alleged errors that could have been raised during
trial.” (Emphasis in original.)). But before addressing either prong of Otgoo’s argument, we
consider whether any error occurred. See People v. Piatkowski, 225 Ill. 2d 551, 565 (2007) (“first
step [of the plain error analysis] is to determine whether error occurred”).

-14-

145-3346

1158
1159

Admission of Prior Conviction for Impeachment
Otgoo argues that the impeachment evidence of his 2008 aggravated battery conviction,
deprived him of his right to a fair trial because the conviction had little probative value as to his
credibility and was improper propensity evidence. The State responds that the trial court balanced
the Montgomery factors (.People v. Montgomery, 47 Ill. 2d 510 (1971)), and properly allowed the
evidence. People v Atkinson, 186 Ill. 2d 450, 458 (2004).

H 60

Under the Montgomery rule, evidence of a prior conviction is admissible for impeachment
where: (i) the crime carried a sentence of imprisonment for more than one year or involved
dishonesty or false statement regardless of the punishment; (ii) the conviction was within 10 years;
and (iii) the probative value of the conviction outweighs the danger of unfair prejudice.
Montgomery, 47 Ill. 2d 510 at 516. Even when relevant for a permissible purpose, however, the
evidence should not be admitted if its probative value is substantially outweighed by its prejudicial
effect. People v. Moss, 205 Ill. 2d 139, 156 (2001). That a prior conviction is for an offense
identical to the offense being tried does not preclude its use for purposes of impeachment. People
v. Melton, 2013 IL App (1st) 060039, H 18 (citing People v. Harden, 2011 IL App (1st) 092309, H
49). The credibility of the witnesses and the weight to be given their testimony as a whole are
matters for the jury to decide. Id. U 37. Lastly, the determination of admissibility comes within the
trial court’s sound discretion. Montgomery, 47111.2d at 517-18.

161

Even though the stakes are higher for a defendant who testifies, and the balancing test must
be carefully applied, the same analysis applies. Otgoo testified and, therefore, put his credibility
in issue. “Under Montgomery, any felony conviction is presumed to relate to testimonial deceit
and is also admissible.” People v. Paul, 304 Ill. App. 3d 404, 410 (1999). Paul involved
impeachment of nondefendant witnesses via prior convictions. But, as stated, prior felony

-15-

1-15-3346
convictions relate to a witness’s veracity. For example, prior convictions for crimes other than for
an offense based on dishonesty are admissible as indicative of truthfulness. People v. Neely, 2013
IL App (1st) 120043,1 21. See People v. Williams, 230 Ill. App.3 d 761, 784-85 (1992) (prior
murder conviction admissible to impeach defendant in murder case).
1162

The customary safeguard against the danger of prejudice rests with an instruction that the
defendant’s criminal record may be considered only as it bears on the weight to be given to the
defendant's testimony. Montgomery, 47 Ill. 2d at 514. The jury instruction here (I.P.I. 3.13) did
just that. See Melton, 2013 IL App (1st) 060039, 1 18 (evidence of conviction for possession of
controlled substance properly allowed despite potential for prejudice; conviction was probative of
defendant’s credibility and jury admonished to consider conviction only for impeachment); People
v. Blankenship, 353 Ill. App. 3d 322, 326 (2004) (in trial for AUUW, trial court not required to
exclude defendant’s two prior convictions for AUUW, especially when jury instructed that prior
conviction could only be considered for purposes of assessing defendant s credibility).

1163 •

Moreover, the prosecutor properly named the offense during impeachment.. “Our case law
interpreting Montgomery suggests that it is the nature of a past conviction, not merely the fact of
it, that aids the jury in assessing a witness’ credibility. [Citations.] The mere-fact approach
undermines the Montgomery rule and inhibits the jury’s evaluation of a witness’ credibility by
eliminating the jury’s consideration of the nature of the past crime.” Atkinson, 186 Ill. 2d at 458.
Otgoo complains that the facts of his 2008 conviction for Aggravated Battery to a Police Officer
was not fully explained to the jury (Otgoo states he spit on the officer), but the law requires the
conviction to be named.

1164

Otgoo’s petition for rehearing re-asserts the argument that plain, reversible error occurred.
Otgoo accuses the prosecutor of “disseminat[ing] false information to the jury, designed to portray

-16-

1-15-3346

Otgoo as a serious prior offender who injures law enforcement officers.” The record reveals that
after Otgoo testified, in rebuttal the prosecutor read from the “Certified Statement of Conviction /
Disposition” which listed the offense as follows: “720-5/12-4(b)(18)

F2

AGG

BTRY/HARM/PEACE OFFICER.” The prosecutor told the jury “the State would like to introduce
a certified statement of conviction under Case No. 08 CR 13763 which shows the People of the
State of Illinois versus Otogonnamar Yuchin was convicted of the felony offense of aggravated
battery causing bodily harm to a peace officer on August 27th, 2008.” No further comment was
made, no argument to the jury mentioned bodily harm, and the prosecutor emphasized in closing
argument that the jury instruction “says you’re not allowed to consider that as evidence that he
was more likely to have committed this crime. That’s improper, you’re not allowed to do that.”
The prosecutor then discussed “civil society” in terms of telling the truth under oath.
1f 65

We presume that the trial judge knew and properly applied the law, unless the record
affirmatively shows otherwise. People v. Gaultney, 174 Ill. 2d 410, 420 (1996). “[I]t would
normally be assumed that a trial judge had given appropriate consideration to the relevant
[Montgomery] factors without requiring a specific evaluation in open court of each of them.”
People v. Washington, 55 Ill. 2d 521, 523-24 (1973).

1j66

It follows then, that the trial court in its discretion properly allowed the impeachment
evidence. It matters not whether the battery to a police officer was spitting or using a bat or some
other means of battery. Thus, Otgoo cannot establish error for the admission of the evidence, and
no error occurred, let alone plain error. See People v. Bannister, 232 Ill. 2d 52, 71 (2008) (“Having
found no error, there can be no plain error.”). Otgoo asserts that if the prior conviction was
admissible as impeachment, it should have been described simply as “‘aggravated battery to a
peace officer,’ the correct name of the offense.” The better practice would have been to drop the

-17-

1-15-3346

phrase “bodily harm,” but one mention when reading from an exhibit does not rise to the level of
plain error.
Moreover, as determined, even if error was present, the evidence was not closely balanced.

H 67

People v. Naylor, 229 Ill. 2d 584, 593 (2008). Good police work resulted in an identification of
Otgoo as the assailant on the CTA train; the victim identified him both in a lineup and in court;
and Otgoo’s sole defense was his own testimony that he had not been on the train. This testimony
was unconvincing. Considering the jury’s acquittal on the second charge of aggravated battery of
someone 60 years or older, the jury carefully considered the evidence and returned a wellconsidered verdict,
Prosecutorial Misconduct

1168

Otgoo argues the State violated his right to a fair trial by (i) deliberately eliciting prejudicial

1169

identification testimony from Loiacono in violation of the trial court’s ruling on the motion in
limine; (ii) deliberately eliciting irrelevant testimony from Velez about his psychological harm and
then making inflammatory remarks regarding Velez’s mental state; and (iii) inviting the jury to
draw impermissible inferences from Otgoo’s prior conviction. Otgoo asserts the cumulative effect
of multiple errors deprived him of a fair trial, citing People v. Davidson, 235 Ill. App. 3d 605, 613
(1992), and People v. Quiver, 205 Ill. App. 3d 1067 (1990). These cases held that where numerous .
instances of prosecutorial misconduct in closing argument are alleged, a reviewing court may
consider the cumulative effect rather than assess the prejudicial effect of each isolated comment.
In Quiver, however, the court found no reversible error because comments did not substantially
prejudice the defendant; in any case, failure to object during argument forfeited the issue. Id. at
1072.

H 70

Violation of Motion in Limine Ruling

-18-

1-15-3346

171

At the hearing on the defense motion in limine, the State agreed that any witness’s
statement regarding the person on the CTA video should be limited to a belief or an opinion, not a
conclusive identification of Otgoo. Defense counsel objected to Loiacono’s trial testimony that he
reviewed the video of the CTA incident and “determined” that he was the same person arrested on
March 29. The objection was sustained. At the close of trial, the trial court instructed the jury to
disregard questions and exhibits which were withdrawn or to which objections were sustained.

172

The prosecutors asked Loiacono: “What did you tell Officer Lebow about the images and
the still photographs that he showed to you?” Loiacono answered, “I determined *** he was the
individual I arrested on March 29th.” The trial court immediately sustained defense counsel’s
objection. The prosecutor then rephrased: “Did you have an opinion as to whether you had seen
the individual before?” Loiacono then testified he “believed” the individual in the photographs to
be the same individual he arrested. Defense counsel moved for a mistrial, arguing Loiacono’s
answer violated the court’s ruling on the motion in limine, and the error was not cured by the
objection being sustained. The trial court denied the mistrial motion.

173

Otgoo relies on People v. Thompson, 2016IL 11867. But Thompson held “[tjhere is no per
se rule against admission of a law enforcement officer's identification testimony.” People v.
Thompson, 2016 IL 118667,

56. And, again, the trial court instructed the jury about treating all

testimony the same, whether the witness was a law enforcement officer or not.

174

Moreover, the trial judge instructed the jury that closing arguments should be “confined to
the evidence and to reasonable inferences to be drawn from the evidence.” The trial court further
told the jury that neither opening nor closing arguments constitute evidence, and any statement or
argument made by either side not based on the evidence should be disregarded. Also, that jury
disregard questions and exhibits which were withdrawn or to which objections were sustained.,

-19-

1-15-3346
and testimony and exhibits which were refused or stricken. The jury should consider only the
testimony of the witnesses and the exhibits received by the court.
The sustained objection to Loiacono’s identification answer indicates the question was

1175

improper; the jury was instructed to disregard both the question and Loiacono’s answer. We find
the trial court’s ruling on the motion in limine was not violated.
Velez’s Testimony

11 76

Otgoo argues that the State elicited irrelevant testimony from Velez about his

1177

psychological harm exacerbated by the prosecutor’s inflammatory remarks.
Velez testified about his physical injuries but also stated that he stopped taking public

178

transportation at night because he was “scared.” He also testified he would never wear a hoodie
again, and that he would “never forget” Otgoo’s face. Otgoo argues he was prejudiced when the
prosecutor repeated these objectionable comments in closing argument, attempting to engender
sympathy for Velez and persuade jurors to convict based on emotion.
179

•

The State responds that the complained-of testimony described Velez’s injuries and was
relevant to the charge of aggravated battery. The prosecutor argued that Velez’s life had changed,
the State also responds that the prosecutor properly argued the strength of Velez’s memory was
partially due to the trauma he had suffered.

180

Prosecutors have wide latitude in their closing arguments and may comment on and draw
inferences from the evidence. People v. Deloney, 359 Ill. App. 3d 458,470 (2005). A prosecutor’s
remarks do not warrant reversal unless they are so prejudicial that, absent those remarks, there is
doubt as to whether the jury would have rendered a guilty verdict. Id. Here, the prosecutor
summarized Velez’s testimony that he no longer used public transportation at night or wore
hoodies, and that he had a clear memory of Otgoo’s face. The argument was fair argument based

-20-

1-15-3346

on Velez’s testimony. We do not view these remarks as inflammatory or engendering undue
sympathy for the victim.
H81

And, again, we note that the trial court properly gave jury instructions regarding the
arguments of counsel; thereby, curing any possible error.

182
183

Closing Argument
Next, Otgoo asserts that the State suggested a propensity to commit crimes when it
repeatedly argued that Otgoo “does not follow the rules” of a civil society and urged the jury to
consider Otgoo’s past conviction as proof. In making this argument, Otgoo misquotes People v.
Williams, 161 Ill. 2d 1, 3'9 (1994) regarding an erosion of the Montgomery rule. Be that as it may,
the conviction in Williams involved voluntary manslaughter and was improperly admitted as
relevant to the question of the defendant’s guilt, and not for impeachment. Id. at 41. Because there
was overwhelming evidence of the defendant’s guilt, this error was not so prejudicial as to have
denied a fair trial and held harmless. Id. at 52.

184

A prosecutor may not characterize a defendant as “evil,” but may comment unfavorably on
the evil effects of the crime and urge the jury to “administer the law without fear.” People v.
Herndon, 2015 Ill App (1st) 123375, ^ 44 (quoting People v. Nicholas, 218 Ill. 2d 104, 121-122
(2005). On the other hand, the prosecution cannot focus its argument on broader problems of crime
in society or engage in a general denunciation of society’s ills. Id. In Herndon, this court found no
error in the prosecutor’s argument that the defendant’s conduct in selling narcotics had a negative
impact on the families that lived in the neighborhood. Id. Similarly, the emphasis was on Otgoo’s
conduct specifically. A civil society is one in which persons may safely travel from place to place
without being attacked, whether verbally or physically. Here, Otgoo attacked, and Velez suffered
both mental and physical harm.

-21-

1-15-3346

11 85

The situation here is distinguishable from that in People v. Slabaugh, 323 Ill. App.3d 723,
731-32 (2001). There, the prosecutor made objectionable comments in closing that did not relate
to the issue of whether the defendant assaulted a police officer. The prosecutor returned to the
subject even after the trial court sustained defense counsel’s objection and instructed the prosecutor
to move on. “Although the prompt sustaining of a defense objection and an instruction to disregard
the improper statements will generally cure any error, when the State repeatedly attempts to make
unfounded arguments, the defendant may be .prejudiced despite the sustaining of the objections.”

II 86

Otgoo maintains that the evidence was closely balanced and the prosecutor’s “multiple
inflammatory, improper statements could have caused the jury to convict” based on emotional
appeal rather than a finding of guilt beyond a reasonable doubt. The State argues that even if the
prosecutor’s remarks in closing argument were error, they did not amount to plain error.

11 87

As we have already held, the evidence was not closely balanced. The CTA security video
captured the entire incident, including views of the assailant’s face and the distinctive jacket. Two
weeks later, Velez identified Otgoo in a lineup, and at trial identified Otgoo. The jacket Otgoo
wore at the time of his arrest five hours later was easily identified as the same jacket due to its
distinctive insignia. These facts compel a conclusion of guilt beyond a reasonable doubt. See
Deloney, 359 Ill. App.3d at 470 (overwhelming evidence of defendant’s guilt mitigated likelihood
jury convicted defendant based on State’s improper remarks).
Electronic Citation Fee

U 88
11 89

Finally, Otgoo concedes his final issue regarding the improper assessment of the electronic
citation fee is unreviewable.

190

Affirmed.

-22-

